Report No. D-2007-129           September 28, 2007




Civilian Payroll and Withholding Data For FY 2007
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
APO                   Agency Payroll Office
CSRS                  Civil Service Retirement System
DCPS                  Defense Civilian Pay System
DFAS                  Defense Finance and Accounting Service
DISA                  Defense Information Systems Agency
DoDEA                 Department of Defense Education Activity
DOE                   Department of Energy
EPA                   Environmental Protection Agency
FEGLI                 Federal Employees Group Life Insurance
FERS                  Federal Employees Retirement System
HHS                   Health and Human Services
OPF                   Official Personnel File
OPM                   Office of Personnel Management
RITS                  Retirement Insurance Transfer System
                             INSPECTOR GENERAL
                            DEPARTMENT OF DEFENSE
 

                              400 ARMY NAVY DRIVE
 

                         ARLINGTON, VIRGINIA 22202-4704
 




                                                                       September 28, 2007

MEMORANDUM FOR DISTRIBUTION

SUBJECT: Report on Civilian Payroll and Withholding Data for FY 2007
         (Report No. D-2007-129)


       We are providing this report for review and comment. The Department of the
Navy, Department of Defense Education Activity, Department of Energy, and
Environmental Protection Agency did not respond to the draft report.

      DoD Directive 7650.3 requires that all recommendations be resolved promptly.
We request that the Department of the Navy, Department of Defense Education Activity,
Department of Energy, and Environmental Protection Agency provide comments on the
recommendation by October 29,2007.

        Ifpossible, please send management comments in electronic format (Adobe
Acrobat file only) to Auddfs@dodig.mil. Copies of the management comments must
contain the actual signature of the authorizing official. We cannot accept the / Signed /
symbol in place of the actual signature. If you arrange to send classified comments
electronically, they must be sent over the SECRET Internet Protocol Router Network
(SIPRNET).

       We appreciate the courtesies extended to the staff. You should direct your
questions to Mr. Douglas P. Neville at (703) 428-1061 (DSN 328-1061) or Mr. Thomas J.
Winter at (703) 428-1082 (DSN 328-1082). For the report distribution, see Appendix C.
The team members are listed inside the back cover.




                                By direction of the Deputy Inspector General for Auditing:


                                       fJ~ a.fYJ~
                                      for Paul J. Granetto, CPA
                                 Assistant Inspector General and Director
                                   Defense Financial Auditing Service
DISTRIBUTION:


AUDITOR GENERAL, DEPARTMENT OF THE ARMY
NAVAL INSPECTOR GENERAL
ASSISTANT SECRETARY OF THE AIR FORCE (FINANCIAL MANAGEMENT
  AND COMPTROLLER)
CHIEF, NATIONAL GUARD BUREAU
DIRECTOR, DEFENSE FINANCE AND ACCOUNTING SERVICE
DIRECTOR, DEFENSE INFORMATION SYSTEMS AGENCY
DIRECTOR, DEPARTMENT OF DEFENSE EDUCATION ACTIVITY
INSPECTOR GENERAL, DEPARTMENT OF ENERGY
INSPECTOR GENERAL, DEPARTMENT OF HEALTH AND HUMAN SERVICES
INSPECTOR GENERAL, ENVIRONMENTAL PROTECTION AGENCY
INSPECTOR GENERAL, OFFICE OF PERSONNEL MANAGEMENT




                             2

                Department of Defense Office of Inspector General
Report No. D-2007-129                                                  September 28, 2007
   (Project No. D2007-D000FP-0065.000)

             Civilian Payroll and Withholding Data for FY 2007

                                 Executive Summary

Who Should Read This Report and Why? This report is intended for the use of the
Office of Personnel Management (OPM) Inspector General and its Chief Financial
Officer and should not be used by those who have not agreed to the procedures and taken
responsibility for the sufficiency of the procedures for their purposes. The report
discusses the results of agreed-upon audit procedures developed for OPM.

Background. Office of Management and Budget Bulletin No. 06-03, “Audit
Requirements for Federal Financial Statements,” August 23, 2006, requires all Federal
agencies to review their civilian employee retirement, health benefits, and life insurance
payroll withholdings. The OPM Inspector General and its Chief Financial Officer
developed specific agreed-upon procedures to review civilian employees’ withholdings
and are, therefore, responsible for the adequacy of the agreed-upon procedures. We
applied the agreed-upon procedures in accordance with the standards established by the
American Institute of Certified Public Accountants. The FY 2007 agreed-upon
procedures included DoD, Department of Energy (DOE), Department of Health and
Human Services (HHS), and the Environmental Protection Agency (EPA). recently
transitioned its payroll functions to the Defense Finance and Accounting Service
(DFAS). DoD had about 690,000 employees, DOE had about 11,000 employees, HHS
had about 64,000 employees, and EPA had about 18,000 employees. We did not audit
the DOE or HHS personnel files. Auditors for the DOE and HHS Inspectors General
audited their respective personnel files.* Both parties provided their working papers to
us.

Results. The payroll withholding amounts and total payroll amounts that DFAS reported
to OPM did not exactly match to the supporting detail that DFAS provided for our
analysis. However, the differences were less than the reporting thresholds prescribed in
the agreed-upon procedures except for one. DFAS corrected the one difference in a
timely manner when we notified them. The differences, including those that did not
exceed the reporting threshold, constitute a repeat issue reported in prior Inspector
General audits. For details of the analysis, see the Independent Auditor’s Report and the
attachment.

Withholding Data Discrepancies. We selected a sample of 315 employees and
compared their payroll withholdings to authorizations in their official personnel files.
The sample of 315 consisted of 180 DoD employees, 45 DOE employees, 45 HHS
employees, and 45 EPA employees. The comparison revealed that 10 of the
315 employee files had a total of 10 discrepancies.

Conclusion. We performed the agreed-upon procedures specifically pertaining to
payroll. We were not engaged to and did not perform an audit with the objective of
expressing an opinion on the withholdings and contributions for health benefits, life
insurance, retirement, or on the employee headcount of the DoD, DOE, HHS, and EPA.
Therefore, we are not expressing an opinion. We performed additional procedures based
on generally accepted government auditing standards that we considered necessary in the
circumstances.

The Navy, DoD Education Activity, Department of Energy, and Environmental
Protection Agency should continue to strengthen internal controls over the accuracy of
payroll amounts withheld and remitted to the OPM. The withholding amounts we
calculated while performing the agreed-upon procedures differed from the withholding
amounts presented in the DFAS reports, but were less than the threshold criteria
prescribed in the agreed-upon procedures.

Management Comments. The Department of the Navy, Department of Defense
Education Activity, Department of Energy, and Environmental Protection Agency did not
provide comments on the draft of this report, issued August 23, 2007; therefore, we
request that these organizations provide comments on this final report by October 29,
2007.




                                           ii
Table of Contents 


Executive Summary                                                   i


Independent Auditor’s Report

     Overview                                                       1
     Agreed-Upon Procedures and Associated Findings (Attachment)    5


Appendixes
     A. Scope and Methodology                                      16 

     B. Prior Coverage                                             17 

     C. Report Distribution                                        18 

                                   Independent Auditor’s Report 


                                                 Overview 


           We performed the procedures described in the attachment, agreed to by the Office
           of Personnel Management (OPM) Inspector General and Chief Financial Officer.
           We performed the procedures solely to assist OPM with respect to employee
           withholdings and employer contributions reported on the Report of Withholdings
           and Contributions for health benefits, life insurance, and retirement 1 for the
           payroll periods ended October 28, 2006; February 17, 2007; and March 3, 2007;
           and Semiannual Headcount Reports as of March 3, 2007. We performed this
           engagement to apply agreed-upon procedures in accordance with the standards
           established by the American Institute of Certified Public Accountants. The
           sufficiency of the procedures is solely the responsibility of OPM’s Inspector
           General and Chief Financial Officer. Consequently, we make no representation
           regarding the attachment either for the requested purpose of this report or for any
           other purpose.

           Comparison of Amounts Withheld and Remittance to OPM. In recent years,
           the Defense Finance and Accounting Service (DFAS) and supporting DoD
           organizations have improved management controls over the accuracy of the
           payroll amounts withheld and reported to OPM. We performed the agreed-upon
           procedures to compare the amounts reported to OPM with the amounts actually
           withheld from employees’ pay. DFAS captures the data necessary to perform the
           agreed-upon procedures at the end of each pay period because the system can be
           adjusted retroactively. DFAS cannot reconcile the payroll database because of
           retroactive adjustments and the lack of a transaction-based general ledger. The
           captured amounts differed slightly. However, the differences were less than the
           threshold criteria prescribed in the agreed-upon procedures.

           Payroll File Totals. The total of the gross payroll amounts in the four DoD
           payroll files sampled, 2 plus the Department of Energy (DOE), Department of
           Health and Human Services (HHS), and Environmental Protection Agency (EPA)
           files (a total of seven files) was $6 billion for the three pay periods we reviewed.
           The $6 billion represents 11.6 percent of the annual gross pay for those payrolls.
           The payroll withholding amounts DFAS reported to OPM for DoD, DOE, HHS,
           and EPA differed from the total of $351.5 million actually withheld by $43,639
           for an overall error rate of 0.01 percent. This is similar to the difference noted for
           FY 2006. The overall differences for retirement, health benefits, and life
           insurance were less than the reporting threshold criteria of 1 percent established
           in the agreed-upon procedures.

           Comparison of Payroll System Data to Official Personnel Files. We compared
           a sample of 315 employees’ pay and withholdings from seven payroll data files to


1
    Civil Service Retirement System (CSRS) and Federal Employees Retirement System (FERS).
2
    The agreed-upon procedures require sampling of payroll files from payroll offices that serve 30,000 or
    more employees.

                                                       1

           documentary support recorded in Official Personnel Files (OPF). 3 Of the
           315 files, 180 represented DoD employees, 45 represented DOE employees,
           45 represented HHS employees, and 45 represented EPA employees. Auditors
           for DOE and HHS reviewed their respective files, and we relied on their work.
           Of the 315 files reviewed, 10 had a total of 10 discrepancies. Table 1 shows the
           breakdown, by entity, of OPFs with discrepancies.

                    Table 1. OPFs with Unresolved Discrepancies by Entity
           Entity                               No. of OPFs

           Navy 4                                    2                               2

           DoDEA 5                                   4                               4

           DOE                                       2                               2

           EPA                                       1                               1

             Total OPF-related                       9                               9

           errors 


           DFAS computation error                    1                               1

             Total 	                               10                              10



           Of the 10 discrepancies:

               •	 2 were in health insurance withholding for DoDEA and DoE;

               •	 2 were in Thrift Savings Plan for DoDEA and EPA;

               •	 5 were in Federal Employees Group Life Insurance (FEGLI) for the Navy,
                  DoDEA, and DoE; and

               •	 1 involved DFAS computations.

                   Resolution of Discrepancies. Initially, during our review of the
           315 employee files, we found 29 OPFs with discrepancies. We provided the
           affected entities with the names, social security numbers, and nature of the
           discrepancies for each of the files. The personnel offices and DFAS subsequently
           provided us with documentation that explained differences between data in 19 of
           the 29 OPFs and data in the Defense Civilian Pay System (DCPS). As a result,
3
    We selected a sample of 315 employees in accordance with criteria stated in the agreed-upon procedures.
    We did not project the results of our testing across the entire population.
4
    One discrepancy resulted from an error that occurred before the employee worked for the Navy.
5
    Department of Defense Education Activity.

                                                      2

       we reclassified 19 OPFs with explained inconsistencies as “samples corrected at a
       later date.”

       Of the 19 we reclassified as sample items corrected at a later date:

           •   3 were from Navy,

           •   2 were from the Air Force,

           •   1 was from the National Guard Bureau,

           •   10 were from the DoDEA, and

           •   3 were from the Defense Information Systems Agency (DISA).

        The Navy, Defense Agencies, DFAS, DOE, and EPA were unable to completely
clarify 10 of the 29 OPFs with potential discrepancies despite their provision of
additional documentation.

       Causes of Discrepancies. Nine of the unresolved discrepancies resulted from
OPF documentation that was not current and therefore did not support DFAS pay and
withholding amounts. An additional unresolved discrepancy resulted from DFAS not
accurately computing FEGLI withholding despite current documentation.

DFAS officials explained that the cause of the incorrect FEGLI computation was the use
of a Last-hour Indicator, a timecard entry that notes whether an employee earned shift or
environmental differential pay on the last hour worked during a pay period. The
employee’s basic FEGLI and FEGLI Option B withholding would be computed on the
basis of differential pay for all hours (or no hours) worked during the pay period
depending on whether the timekeeper entered the Last-hour Indicator. This would create
an incorrect withholding if the employee worked only part of a pay period in differential
pay status. DFAS officials stated in comments on our audit report for FY 2006 that they
initiated an engineering change proposal for DCPS that will, when implemented in
October 2008, end dependence on the Last-hour Indicator and compute the withholding
base on actual differential pay earned. Therefore, we make no recommendation on the
issue at this time.

Employee Head Count. The agreed-upon procedures require us to compare the number
of employees (headcount) in the payroll files with the headcount in the Supplemental
Semiannual Headcount Report. Our headcounts of the employees, using the payroll files,
differed from the Supplemental Semiannual Headcount Reports by less than 1 percent,
well within the 2-percent reporting threshold stated for headcount comparison in the
agreed-upon procedures.

Life Insurance. Our recalculation of basic life insurance from the payroll data files
supported the amounts reported to OPM for all of the DoD payroll offices with more than
30,000 employees and the DOE, HHS, and EPA payroll offices. The overall calculated
amount differed by $0.24 million (1.32 percent) from the $18.2 million DFAS reported to
OPM. The difference between the amounts we calculated and the amounts DFAS
reported to OPM did not exceed, with one exception, the 5-percent reporting threshold


                                            3

prescribed in the agreed-upon procedures. DFAS corrected the discrepancy in a timely
manner after we notified them of the exception.

Health Insurance. Our recalculations of health insurance withholdings from payroll
data files supported the amounts DFAS reported to OPM. The amounts we recalculated
from the payroll data files varied from the amounts DFAS reported to OPM by
percentages between 0.10 and 1.07 percent in total, including employee withholdings and
agency contributions from each payroll file. This was much lower than the prescribed
reporting threshold of 5 percent for health insurance variances.

Conclusion. We performed the agreed-upon procedures specifically pertaining to
payroll. We were not engaged to and did not perform an audit with the objective of
expressing an opinion on the withholdings and contributions for health benefits, life
insurance, retirement, and on the employee headcount of the DoD, DOE, HHS, and EPA.
Therefore, we are not expressing an opinion. However, we performed additional
procedures based on generally accepted government auditing standards that we
determined necessary to evaluate the integrity of the data.

We are providing this report solely for OPM’s Inspector General and Chief Financial
Officer use. We prepared this report in the format directed by Office of Management and
Budget Bulletin No. 06-03, August 23, 2006, (the Bulletin) to address the results of the
agreed-upon procedures. Accordingly, this report should not be used by those who have
not agreed to the procedures and have not taken responsibility for the sufficiency of the
procedures for their purposes. The Bulletin includes the requirement that we obtain
management comments on this report.

In support of OPM’s plan to consolidate Federal payroll providers, DFAS administered
DOE, HHS, and EPA payroll functions in FY 2007. Therefore, we are the principal
auditors responsible for auditing DOE, HHS, and EPA civilian payroll data. DOE
auditors performed the review of the 45 DOE OPFs. HHS auditors performed the review
of the 45 HHS OPFs. We relied on the work of these auditors for our reporting purposes.
We performed the review of the 45 EPA OPFs.


Recommendation
       We recommend that Navy, Department of Defense Education Activity,
       Department of Energy, and Environmental Protection Agency personnel offices
       continue to implement and improve payroll withholding procedures to ensure that
       payroll withholding authorizations support the amounts actually withheld.


Management Comments Required
       The Department of the Navy, Department of Defense Education Activity,
       Department of Energy, and Environmental Protection Agency did not provide
       comments on the draft of this report; therefore, we request that these
       organizations provide comments on this final report by October 24, 2007.


                                            4

      Agreed-Upon Procedures and Associated Findings

                             (Attachment)

This attachment contains the OPM agreed-upon procedures, the auditor actions,
and the results of accomplishing those procedures.

Procedure. Obtain the APO’s [Agency Payroll Office] March Semiannual
Headcount Report submitted to OPM and a summary of Retirement Insurance
Transfer System (RITS) submissions for the current fiscal year. For Retirement,
Health Benefit, and Life Insurance select any three RITS submissions for the
current fiscal year, one of which coincides with the March Semiannual Headcount
Report. Obtain payroll information for the periods covered by the RITS
submissions selected.

Auditor Action for DoD, DOE, HHS, and EPA. We obtained RITS
submissions for each payroll database, for the pay periods ended October 28,
2006; February 17, 2007; and March 3, 2007, and the Semiannual Headcount
Report as of March 3, 2007. We also obtained payroll database extracts for the
three pay periods.

Procedure 1. Compare RITS submission data with payroll information by
performing the following procedures:

Procedure 1.a. Recalculate the mathematical accuracy of the payroll
information. For cross-servicing agencies, if the internal controls are the same for
all agencies serviced, it is only necessary to perform this procedure for one
agency.
Auditor Action for DoD. DFAS extracted all 7 DoD payroll data files from the
payroll history database and sent them to us by compact disc from the Pensacola,
Florida, operating location. We totaled the 21 payroll files (7 payroll files for
three pay periods) with about $5.1 billion period in total pay and about
690,000 employees in each pay period. We also totaled the CSRS, FERS, Health
Insurance and Life insurance withholdings. According to DFAS, the total
withholdings for DoD were approximately $85.4 million for CSRS, $30.1 million
for FERS, $143.5 million for Health Insurance, and $46.7 million for Life
Insurance. The total gross FY 2007 payroll for DoD was about $44.2 billion.

Auditor Action for DoE. We performed the same procedure as for DoD. We
totaled the three payroll files (one payroll file for three pay periods) with about
$39.4 million in total pay and about 10,600 employees in each pay period.
According to DFAS, the total withholdings for DOE were approximately
$2.4 million for CSRS, $0.6 million for FERS, $2.9 million for Health Insurance,
and $1.1 million for Life Insurance. The total gross FY 2007 payroll for DOE
was about $1 billion.

Auditor Action for HHS. We performed the same procedure as for DoD. We
totaled the three payroll data files (one payroll file for three pay periods) with
about $187.7 million in total pay and about 65,000 employees in each pay period.
                                     5

According to DFAS, the total withholdings for HHS were approximately
$7.2 million for CSRS, $3.5 million for FERS, $13.1 million for Health
Insurance, and $4.6 million for Life Insurance. The total gross FY 2007 payroll
for HHS was $4.9 billion.

Auditor Action for EPA. We performed the same procedure as for DoD. We
totaled the three payroll data files (one payroll file for three pay periods) with
about $186.5 million in total pay and about 18,200 employees in each pay period.
According to DFAS, the total withholdings for EPA were approximately
$3.3 million for CSRS, $1.1 million for FERS, $4.5 million for Health Insurance,
and $1.4 million for Life Insurance. The total gross FY 2007 payroll for EPA was
$1.6 billion.

Procedure 1.b. Recalculate the mathematical accuracy of each RITS submission
for the payroll information selected in step 1.a.

Auditor Action for DoD, DOE, HHS, and EPA. We recalculated the
mathematical accuracy of each RITS submission of payroll information for the
pay periods October 28, 2006; February 17, 2007; and March 3, 2007. We
compared the recalculated amounts with the RITS submission for the
corresponding pay periods. Differences between DCPS payroll file totals and the
corresponding amounts in the RITS submissions were within the 1-percent
reporting threshold for these comparisons.

Procedure 1.c. Compare the employee withholding information shown on the
payroll information obtained in step 1.a. for Retirement, Health Benefits, and Life
Insurance (as adjusted for reconciling items) to the related amounts shown on the
RITS submission for the corresponding period.

Auditor Action for DoD, DOE, HHS, and EPA. We compared the employee
withholding totals to the related amounts shown on the RITS submissions for
Retirement, Health Benefits, and Life insurance, as evidenced by a Form 2812
produced from the RITS database. The payroll data file totals for CSRS, FERS,
Health Benefits, and Life Insurance substantially equaled the amounts on the
Form 2812.

Procedure 2.a. Randomly select a total of 25 individuals who were on the
payroll system for all three of the RITS submissions selected and meet all the
following criteria:

   •	 covered by the Civil Service Retirement System (CSRS) or the Federal
      Employees Retirement System (FERS);

   •	 enrolled in the Federal Employees Health Benefits Program;

   •	 covered by Basic Life Insurance; and

   •	 covered by at least one Federal Employees Group Life Insurance (FEGLI)
      optional coverage (Option A, B, or C).



                                     6

Auditor Action for DoD, DOE, HHS, and EPA. We randomly selected
25 individuals from each of the seven payroll files (four files for DoD and one
each for DOE, HHS, and EPA) who were enrolled in the Federal Retirement,
Health Benefits, and FEGLI programs.

Procedure 2.b. Obtain the following documents, either in electronic or hard copy
format, from the Official Personnel File (OPF) for each individual selected in step
2.a. Hard copies can be originals or certified copies.

   •	 All Notifications of Personnel Actions (SF-50) covering the pay periods in
      the RITS submissions chosen;

   •	 the Health Benefit Registration Form (SF-2809) covering the pay periods
      in the RITS submissions chosen or, if applicable, request that the agency
      personnel office obtain a report from the agency’s automated system that
      allows participants to change benefits (e.g., Employee Express) for any
      health benefits transactions in that system for the individuals selected in
      step 2.a. Compare the date of transaction with the date on the certified
      copy of the SF-2809 or the agency’s automated system report requested.
      Confirm that the health benefit information to be used in step 2.f. covers
      the pay periods in the RITS submissions chosen (note: a new SF-2809 is
      needed only if an employee is changing health benefit plans, therefore the
      form could be many years old); and

   •	 the Life Insurance Election Form (SF-2817) covering the pay periods in
      the RITS submission chosen (note: a new SF-2817 is only needed if an
      employee is changing life insurance coverage; therefore, a form could be
      many years old).

Auditor Action for DoD. We obtained Notifications of Personnel Actions
(SF-50), Health Benefit Registration Forms (SF-2809), and Life Insurance
Election Forms (SF-2817) covering the pay period in the RITS submissions

Auditor Action for DOE and HHS. We verified that the auditors for DOE and
HHS obtained Notifications of Personnel Actions (SF-50), Health Benefit
Registration Forms (SF-2809), and Life Insurance Election Forms (SF-2817)
covering the pay period in the RITS submissions.

Auditor Action for EPA. We obtained Notifications of Personnel Actions
(SF-50), Health Benefit Registration Forms (SF-2809), and Life Insurance
Election Forms (SF-2817) covering the pay period in the RITS submissions.

Procedure 2.c. Compare the base salary used for payroll purposes and upon
which withholdings and contributions generally are based with the base salary
reflected on the employees’ SF-50. Report any differences.

Auditor Action for DoD, DOE, HHS, and EPA. We compared the base salary
used for payroll purposes with the base salary reflected on the employees’
SF-50s. We did not find any discrepancies for this comparison.



                                     7

Procedure 2.d. For Retirement, compare the plan code on the employees’ SF-50
to the plan code used in the payroll system. Report any differences.

Auditor Action for DoD, DOE, HHS, and EPA. We compared the plan codes
on the employees’ SF-50s to the plan codes used in the payroll system. The DOE
and HHS auditors performed the same procedure for the DOE and HHS
employees’ SF-50s. There were no differences between the Retirement plan
codes on the employees’ SF-50s and the plan codes used in the payroll system.

Procedure 2.e. Calculate the retirement amount to be withheld and contributed
for the plan code from the employees’ SF-50, based upon the official withholding
and contribution rates required by law. Compare to actual amounts withheld and
contributed. Report any differences.

Auditor Action for DoD. We calculated the retirement amount to be withheld
and contributed for the plan codes from the employees’ SF-50s, based on the
official withholding and contribution rates required. We compared the actual
amounts withheld and contributed for CSRS and FERS participants. There were
no differences for this comparison.

Auditor Action for DOE. DOE auditors calculated the retirement amount to be
withheld for the plan codes from the employees’ SF-50s, based on the official
withholding rates required. They compared the actual amounts withheld for
CSRS and FERS participants. They found no differences for this comparison.

Auditor Action for HHS. HHS auditors calculated the retirement amount to be
withheld for the plan codes from the employees’ SF-50s, based on the official
withholding rates required. They compared the actual amounts withheld for
CSRS and FERS participants. They found no differences for this comparison.

Auditor Action for EPA. We calculated the retirement amount to be withheld
and contributed for the plan codes from the employees’ SF-50s, based on the
official withholding and contribution rates required. We compared the actual
amounts withheld and contributed for CSRS and FERS participants. There were
no differences for this comparison.

Procedure 2.f. For Health Benefits, compare the employee withholdings and
agency contributions with the official subscription rates issued by OPM for the
plan and option elected by the employees, as documented by a Health Benefits
Registration Form (SF-2809) in the employees’ OPF or Employee Express.
Report any differences.

Auditor Action for DoD, DOE, HHS, and EPA. We obtained the official
subscription rates for Health Benefits issued by OPM for all plans and options
available to Federal employees. We compared the employee withholdings and
agency contributions with the official subscription rates issued by OPM for plans
and options elected by the employees, as documented in the Health Benefits
Registration Forms (SF-2809) in the employees’ OPFs. The DOE and HHS
auditors performed the same procedure for their employees. There were two
discrepancies for this comparison, one for the Defense Agencies and one for
DOE.

                                    8

Procedure 2.g. For Life Insurance, confirm that Basic Life Insurance was elected
by the employees, as documented by a Life Insurance Election Form (SF-2817),
in his/her OPF. Report any differences.

Auditor Action for DoD, DOE, HHS, and EPA. We compared Life Insurance
Election Forms (SF-2817) with withholding data in DCPS. The DOE and HHS
auditors performed the same procedure for their employees. We found
five discrepancies for this comparison; two for the Navy, two for the Defense
agencies, and one for DOE.

Procedure 2.h. Calculate the withholding and contribution amounts for Basic
Life Insurance using the following:

   •	 For employee withholdings: Round the employee’s annual base salary to
      the nearest thousand dollars and add $2,000. Divide this total by 1,000 and
      multiply by $0.15 (for APOs with biweekly pay periods) or $0.3358 (for
      APOs with monthly pay periods).

   •	 For agency contributions: Divide the employee withholdings calculated
      above by two.

Compare to actual amounts withheld and contributed. Report any differences.

Auditor Action for DoD, DOE, HHS, and EPA. We calculated the withholding
amounts for Basic Life Insurance by rounding the employee’s annual base salary
up to the next thousand dollars and adding $2,000, then dividing the result by
$1,000 and multiplying by $0.15. The DOE and HHS auditors performed the
same procedure for their employees. We identified one discrepancy for this
procedure. DFAS did not correctly include differential pay in the employee’s
base pay for FEGLI withholding.

Procedure 2.i. Also, for Life Insurance, compare optional coverage elected as
documented by an SF-2817 in the employees’ OPF with optional coverage
documented in the payroll system. Report any differences.

Auditor Action for DoD, DOE, HHS, and EPA. We obtained SF-2817s
directly from employees’ OPFs and electronic personnel databases. We obtained
optional life insurance coverage data from DCPS. We compared optional life
insurance coverage elected as documented on the SF-2817s with optional life
insurance coverage elected as recorded in DCPS. We identified four exceptions
for this comparison; one for the Navy, two for Defense agencies, and one for
DOE.

Procedure 2.j. Calculate the withholding amounts for optional life insurance
using the following:

   •	 For Option A: Determine the employee’s age group using the age groups
      provided for Option A in the FEGLI Program Booklet. The withholding
      amount is the rate listed in the FEGLI Program Booklet for that age group.
      Compare to amount withheld. Report any differences.


                                   9

   •	 For Option B: Inspect the SF-2817 to determine the number of multiples
      chosen for Option B. Determine the employee’s age group using the age
      groups provided for Option B in the FEGLI Program Booklet. Round the
      employee’s annual rate of basic pay up to the next 1000, divide by 1000,
      and multiply by the rate for the age group. Multiply this amount by the
      number of multiples chosen. Compare to amount withheld. Report any
      differences.

   •	 For Option C: Inspect the SF-2817 to determine the number of multiples
      chosen for Option C. Determine the employee’s age group using the age
      groups provided for Option C in the FEGLI Program Booklet. Multiply
      the rate for the age group by the number of multiples chosen. Compare to
      amount withheld. Report any differences.

Auditor Action for DoD. We calculated the amounts for optional life insurance
as prescribed in Procedure 2.j. We identified three discrepancies for this
comparison; one for the Navy and two for the Defense agencies. These
discrepancies arise from the documentation discrepancies noted for Procedure 2.i.

Auditor Action for DOE. The DOE auditors performed the same procedures
and found one instance were the documentation did not support the amounts
withheld according to DFAS.

Auditor action for HHS. The HHS auditors performed the same procedures and
found no differences for this comparison.

Auditor Action for EPA. We performed the same procedures and found no
differences for this comparison.

Procedure 3. Randomly select a total of 10 employees, who have no Health
Benefits withholdings, from the payroll information corresponding to the three
RITS submissions selected for testing above.

Request SF-2809s covering the pay periods in the RITS submissions chosen,
either in electronic or hard copy format, from the selected employees’ OPFs.
Hard copies can be originals or certified copies. Via the agency personnel office,
request a report from Employee Express for any Health Benefit transactions in
that system for the individuals selected. Inspect the documentation to determine
that health benefit coverage was not elected. This can be determined in the
following ways:

   •	 absence of an SF-2809 in the OPF and no election of coverage made
      through Employee Express;

   •	 an SF-2809 in the OPF with Section E checked (indicating cancellation of
      coverage) and no later election of coverage through Employee Express; or

   •	 cancellation of coverage through Employee Express and no later election
      of coverage with an SF-2809. Report any exceptions.



                                    10 

Auditor Action for DoD. We randomly selected 10 sample items from each of
the payroll data files. The sample items represented employees who had no
Health Benefits withholdings according to the payroll information corresponding
to the RITS submissions selected for testing. We reviewed SF-2809s in the OPFs
and electronic personnel databases and found no discrepancies.

Auditor Action for DOE. We randomly selected 10 sample items from the
payroll data file. The sample items represented employees who had no Health
Benefits withholdings according to the payroll information corresponding to the
RITS submissions selected for testing. The DOE auditors reviewed SF-2809s in
the OPFs and electronic personnel databases and found no discrepancies.

Auditor Action for HHS. We randomly selected 10 sample items from the
payroll data file. The sample items represented employees who had no Health
Benefits withholdings according to the payroll information corresponding to the
RITS submissions selected for testing. The HHS auditors reviewed SF-2809s in
the OPFs and electronic personnel databases and found no discrepancies.

Auditor Action for EPA. We randomly selected 10 sample items from the
payroll data file. The sample items represented employees who had no Health
Benefits withholdings according to the payroll information corresponding to the
RITS submissions selected for testing. We reviewed SF-2809s in the OPFs and
electronic personnel databases and found no discrepancies.

Procedure 4. Randomly select a total of 10 employees who have no Life
Insurance withholdings from the payroll information corresponding to the three
RITS submissions selected for testing above. Request the SF-2817s covering the
pay periods in the RITS submissions chosen, either in electronic or hard copy
format, from the selected employees’ OPFs. Hard copies can be originals or
certified copies. Inspect the SF-2817 to determine that the employee waived or
cancelled Basic Life Insurance coverage. Report any exceptions.

Auditor Action for DoD, DOE, HHS, and EPA. We randomly selected
10 sample items from each payroll data file. The sample items represented
employees who had no Life Insurance withholdings according to the DCPS
payroll files. We requested and obtained the SF-2817s covering the pay periods
corresponding to the RITS submissions chosen. We inspected the SF-2817s in all
instances when the coverage was waived or cancelled and found no discrepancies.
The DOE auditors performed the same procedure for their employees and found
no discrepancies. The HHS auditors performed the same procedure for their
employees and found no discrepancies. We performed the same procedure for the
EPA employees and found no discrepancies.

Procedure 5. Calculate the headcount reflected on the Semiannual Headcount
Report selected for testing above, as follows.

Procedure 5.a. Obtain existing payroll information supporting the selected
Supplemental Semiannual Headcount report. If existing payroll data is not
available, have a payroll system query performed that summarized detailed
payroll data supporting the Supplemental Semiannual Headcount Report, as
follows:

                                   11 

   •   benefit category (see Semiannual Headcount Report),

   •   dollar amount of withholdings and contributions,

   •   number enrolled (deductions made/no deductions),

   •   central personnel data file code,

   •   aggregate base salary.

Procedure 5.b. Recalculate the headcount reflected on the Semiannual
Headcount Report. If an electronic file is not available, a suggested method of
recalculating the Headcount is as follows: (1) estimate the number of employees
per payroll register page by counting the employees listed on several pages,
(2) count the number of pages in the payroll register, and (3) multiply the number
of employees per page by the number of pages, or count (using a computer audit
routine) the number of employees on the payroll data file for the period.

Procedure 5.c. Compare the results of payroll information from step 5.a. with
the calculated headcount from step 5.b. to the information shown on the
Semiannual Headcount Report.

Procedure 5.d. Report any differences (i.e., gross rather than net) greater than
2 percent between the headcount reporting on the agency’s Semiannual
Headcount Report and payroll information from step 5.a. and the calculated
headcount from step 5.b.

Auditor Action for DoD, DOE, HHS, and EPA. We obtained the DFAS
Semiannual Supplemental Headcount Reports for each payroll database for the
pay period ended March 3, 2007. We compared those headcount reports to the
payroll data files for the same pay period. The counts in the payroll data files
differed from the headcount reports by less than the reporting threshold of
2 percent.

Procedure 6. Calculate employer and employee contributions for Retirement,
Health Benefits, and Life Insurance.

Procedure 6.a. Calculate Retirement withholdings and contributions for the
three pay periods selected, as follows:

Procedure 6.a.i. Multiply the CSRS and FERS payroll base by the withholding
and employer contribution rates required by law.

Procedure 6.a.ii. Compare the calculated totals with related amounts shown on
the RITS submissions. Report any variances (i.e., gross rather than net) between
the calculated amounts and the amounts reported on the RITS submissions greater
than 5 percent of the amounts on the RITS submission.

Auditor Action for DoD, DOE, HHS, and EPA. We calculated total CSRS and
FERS retirement employee withholdings and employer contributions for the three
pay periods that we reviewed, and compared the recalculated totals with the

                                    12 

amounts shown on the RITS submissions. The differences for these comparisons
ranged from zero to 0.94 percent, well within the 5-percent reporting threshold.

Procedure 6.b. Calculate employee withholdings and employer contributions for
Health Benefits for the three pay periods selected, as follows:

Procedure 6.b.i. Multiply the number of employees enrolled in each Health
benefits plan and plan option by the employee withholdings and employer
contributions for the plan and option.

Procedure 6.b.ii. Sum the totals in step 6.b.i. and compare the result with the
Health Benefit withholding and contribution amounts shown in the RITS
submissions. Report any variances and obtain management’s explanation of the
variances (i.e., gross rather than net) between the calculated amounts and the
amounts reported on the RITS submissions greater than 5 percent of the amounts
on the RITS submission.

Auditor Action for DoD, DOE, HHS, and EPA. We obtained the number of
employees enrolled in each Health Insurance plan for each payroll data file from
data provided by DFAS as RITS submissions. We obtained the official
subscription rates for Health Benefits issued by OPM for all plans and options
from the OPM website. We extended and added totals and compared the results
with the Health Insurance withholdings and contribution amounts shown on the
Forms 2812. None of the payroll offices had variances greater than the 5-percent
reporting threshold for this comparison.

Procedure 6.c. Calculate the Basic Life Insurance employee withholdings and
employer contributions for the three pay periods selected as follows:

Procedure 6.c.i. Have APO personnel perform a payroll system query to
determine the total number of employees with Basic Life Insurance coverage and
the aggregate annual base pay for all employees with Basic Life Insurance.

Procedure 6.c.ii. For employee withholdings: Add the product of 2,000 times
the number of employees with Basic Life Insurance coverage to the aggregate
annual basic pay for all employees selected. This represents the estimated total
Basic Life Insurance coverage. Divide this total by 1,000 and multiply by the rate
required by law. The Life Insurance rates can be found in the FEGLI Program
Booklet on OPM’s website.

Procedure 6.c.iii. Compare the result in step 6.c.ii to the withholdings for Basic
Life Insurance coverage reported on the RITS submission and report any
difference and obtain management’s explanation of the difference (i.e., gross
rather than net) between the estimate and the amount of withholdings reported on
the RITS submission greater than 5 percent of the amounts on the RITS
submission.

Procedure 6.c.iv. For agency contributions: Divide the results of step 6.c.ii by
two – this approximates agency contributions, which are one-half of employee
withholdings. Compare this result to the amount reported on the RITS
submission and report any difference and obtain management’s explanation of the

                                    13 

difference (i.e., gross rather than net) between the estimate and the amount of
withholdings reported on the RITS submission greater than 5 percent of the
amounts on the RITS submission.

Auditor Action for DoD, DOE, HHS, and EPA. We totaled the amount of
gross pay of employees in each payroll data file who were eligible for Basic Life
Insurance. We divided this sum by 80 and multiplied by 2,087 to determine
annual gross earnings of employees electing Basic Life Insurance coverage. We
used data from DCPS to obtain a count of employees electing Basic Life
Insurance coverage for each payroll data file. We multiplied 2,000 times the
number of employees electing Basic Life Insurance and added the result to the
gross pay of employees who were eligible for Basic Life Insurance. We
multiplied the result by $0.15 per thousand to estimate Basic Life withholding
and compared the result to the withholding amounts shown on Forms 2812. We
did not find any payroll office variances greater than the 5-percent reporting
threshold for this comparison. To estimate agency contributions, we divided the
estimated Basic Life withholding by two and compared it to employer Basic Life
contributions shown on Forms 2812. All payroll office variances except one were
less than the 5-percent reporting threshold for this comparison. We determined
one variance to be 6.64 percent. A DFAS official stated that the payroll office
processed a manual adjustment. DFAS corrected the discrepancy in a timely
manner after we notified them.

Procedure 6.d. Calculate the Option A, Option B, and Option C Life Insurance
coverage withholdings for the three pay periods selected by using detail payroll
reports used to reconcile the RITS reports in Step 1. In addition to the
information used for step 1, the reports should include the employee's date of
birth, annual rate of basic pay, and number of multiples selected for Options B
and C. Note: While similar to step 2.j., the calculation here is for the entire
amount reported on the RITS submissions for the three pay periods selected, as
opposed to the sample of 25 employees in step 2.j.

Procedure 6.d.i. Multiply the number of employees in each age group by the
appropriate rate for Option A in accordance with the rates for age groups
provided in the FEGLI Program Booklet. Report any differences (i.e., gross
rather than net) greater than 2 percent of the amounts on the RITS submission.

Auditor Action for DoD, DOE, HHS, and EPA. We multiplied the number of
employees in each age group by the appropriate rate for Option A in accordance
with the rates for age groups provided in the FEGLI Program Booklet. We
totaled the results for each payroll data file and compared the results with the
corresponding amounts on the RITS submissions. We determined that all
differences are well within the 2-percent tolerance for this comparison.

Procedure 6.d.ii. Divide the reports for Option B and Option C insurance into
the age groups shown in the FEGLI Program Booklet. For Option B, round the
employee's annual rate of basic pay up to the next 1000, divide by 1000, multiply
by the rate for the age group, multiply this by the number of multiples (annual
rate of basic pay [rounded up]/1000 x rate x multiples). For Option C, multiply
the rate for the age group by the number of multiples chosen for each employee.


                                    14 

Report any differences (i.e., gross rather than net) greater than 2 percent of the
amounts on the RITS submission for Option B and/or Option C.

Auditor Action for DoD, DOE, HHS, and EPA. For each payroll database for
each of the three pay periods we reviewed, we identified the payroll records for
those employees who elected Options B and C, and those who elected each
number of multiples of coverage within the allowable range (one through five
multiples) using the payroll data files. We multiplied the results by the official
withholding rates shown in the FEGLI Program Booklet, times the number of
multiples of coverage elected, to reconstruct the total withholdings for Options B
and C. We compared this result with the amounts shown on the corresponding
RITS submissions. We determined that no differences exceeded the tolerances
prescribed in the agreed-upon procedures.




                                     15 

Appendix A. Scope and Methodology 

   We totaled the DFAS payroll files that included about 783,000 DoD, DOE, HHS,
   and EPA employees with a total gross payroll of about $6 billion for the seven
   DoD payroll offices plus the DOE, HHS, and EPA payroll offices for the
   three pay periods we reviewed. This total included all payroll offices regardless
   of the number of employees. The agreed-upon procedures require a review of
   only those payroll offices that service 30,000 or more employees. Three of the
   seven DoD payroll offices service fewer than 30,000 employees and are included
   in the total but not in the audit sample.

   We reviewed payroll data and documentation supporting $809 million for
   retirement, life insurance, health insurance, and Thrift Savings Plan withholdings
   reported each year by DFAS to OPM for DoD, DOE, HHS, and EPA civilian
   personnel. The total payroll processed by DFAS for these agencies was for about
   783,000 employees with an annual payroll of about $51 billion.

   We performed the agreed-upon procedures required by OMB. Specifically, we
   reviewed data and documentation supporting gross pay and payroll withholdings
   that DFAS reported to OPM for the three pay periods ended October 28, 2006;
   February 17, 2007; and March 3, 2007. We compared the payroll data files with
   personnel forms for 315 randomly selected employees for gross pay, retirement,
   life insurance, and health insurance.

   We also verified payroll data file totals and calculations of life insurance, health
   insurance, and retirement withholdings. We performed additional procedures
   based on generally accepted government auditing standards that we considered
   necessary in the circumstances.

   Use of Computer-Processed Data. We did not evaluate the general and
   application controls of the DCPS that processes payroll data, although we did rely
   on data produced by that system to conduct the audit. We determined data
   reliability by totaling the data provided to us from the system and comparing the
   totals to summary documents previously prepared from the system. Not
   evaluating the controls did not affect the results of the application of the
   agreed-upon procedures.

   Work of Other Auditors. Auditors from the Department of Energy Office of
   Inspector General performed the agreed-upon procedures that involved reviewing
   OPFs for DOE. Auditors from the Department of Health and Human Services
   Office of Inspector General performed the agreed-upon procedures that involved
   reviewing OPFs for HHS. We reviewed their working papers and determined that
   we can rely on their work.

   Government Accountability Office High-Risk Area. The Government
   Accountability Office has identified several high-risk areas in DoD. This report
   provides coverage of the DoD Financial Management high-risk area.



                                        16 

Appendix B. Prior Coverage 

     During the last 5 years, the Department of Defense Inspector General (DoD IG)
     and the Air Force Audit Agency have issued seven reports discussing civilian
     payroll and withholding data. Unrestricted DoD IG reports can be accessed at
     http://www.dodig.mil/audit/reports. Unrestricted Air Force Audit Agency reports
     are on the internet at https://www.afaa.hq.af.mil.domainck/index/shtml.

DoD IG
     DoD IG Report No. D-2006-119, “DoD Civilian Payroll and Withholding Data
     for FY 2006,” September 27, 2006

     DoD IG Report No. D-2006-002, “DoD Civilian Payroll Withholding Data for
     FY 2005,” October 6, 2005

     DoD IG Report No. D-2005-036, “DoD Civilian Payroll Withholding Data for
     FY 2004,” February 17, 2005

     DoD IG Report No. D-2004-051, “DoD Civilian Payroll Withholding Data for
     FY 2003,” February 6, 2004

     DoD IG Report No. D-2003-060, “DoD Civilian Payroll Withholding Data for
     FY 2002,” March 18, 2003

Air Force
     AFAA Report No. F2007-0005-FB1000, “Follow-up Audit, Civilian Premium
     Payments,” February 2, 2007

     AFAA Report No. F2004-0001-FB1000, “Civilian Premium Payment,”
     October 1, 2003




                                       17 

Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Personnel and Readiness

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Chief, National Guard Bureau
Director, Defense Finance and Accounting Service
Director, Defense Information Systems Agency
Director, Department of Defense Education Activity

Non-Defense Federal Organization
Office of Management and Budget
Office of Personnel Management
Department of Energy
Department of Health and Human Services
Environmental Protection Agency




                                          18 

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement,
  Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs,
  Committee on Oversight and Government Reform




                                      19 

Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service Directorate, prepared this report. Personnel
of the Department of Defense Office of Inspector General who contributed to the
report are listed below.

Paul J. Granetto
Patricia A. Marsh
Douglas P. Neville
Thomas J. Winter
Jonathan M. Rabben
James B. Davis, Jr.
Frederick R. McComas
Ariel Vega
Sandra E. Nieves-Mendez
Jackeline Ortiz-Perez
